                           CLOSEOUT FOR M98050014

On 5 May 1998, an NSF program officer' brought an allegation of misconduct in science
to our attention. The complainant,2 who was an ad hoc reviewer of the subject's3 NSF
proposal,4 alleged that the subject had plagiarized text from a publication5 into his
proposal.

OIG noted that the subject's proposal contained about three sentences of text paraphrased
from text from the publication in two separate sections of the proposal. The similar text
described work already completed in a particular field of study. We noted that the
publication from which the text was apparently copied was one author's compilation of
the work accomplished by several panelists, including the subject, who attended a
conference to discuss their work.

We determined that if the subject copied these three sentences of text from the
publication into his proposal without appropriately distinguishing it from his own text, it
would have been a deviation from accepted practices of the scientific community.
However, in this case, we concluded that, even if the subject copied this text into his
proposal, this was not sufficiently serious to continue this inquiry. We wrote to the
subject informing him of the allegation and our decision to not proceed further.

This case is closed and no further action will be taken.

cc: staff scientist, investigations, attorney, IG




                                           Footnotes Redacted



                                          Page 1 of 1
